                     UNCLASSIFIED

  United States Department of State

and the Broadcasting Board of Governors

        Ofﬁce of Inspector General





                Ofﬁce of Audits


Independent Accountants' 

    Report on Audit of

   Department of State 

     Compliance With 

    Transparency and 

 Reporting Requirements 

of the American Recovery

    and Reinvestment 

           Act

 Report Number AUD/CG-10-22, June 2010

                               IMPORTANT NOTICE


This report is intended solely for the ofﬁcial use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy
directly from the Ofﬁce of Inspector General. No secondary distribution may be
made, in whole or in part, outside the Department of State or the Broadcasting
Board of Governors, by them or by other agencies or organizations, without prior
authorization by the Inspector General. Public availability of the document will be
determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
disclosure of this report may result in criminal, civil, or administrative penalties.




                       UNCLASSIFIED

                                                      UNCLASSIFIED


                                United States Department of State

                             and the Broadcasting Board of Governors

                                    Office of Inspector General



                                                   Office of Audits


                           Independent Accountants’ Report on
                       Audit of Department of State Compliance With 

                      Transparency and Reporting Requirements of the 

                         American Recovery and Reinvestment Act 


                                Report Number AUD/CG-10-22, June 2010



Kearney & Company, P.C., performed this audit under Department of State, Office of
Inspector General, Contract No. SAQMMA09D0002, and by acceptance the report
becomes a product of the Inspector General.




                                                                        ___________________________
                                                                        Harold W. Geisel
                                                                        Deputy Inspector General




                                                                        6/21/2010___________________
                                                                        Date


                                                 IMPORTANT NOTICE

This report is intended solely for the official use of the Department of State, Broadcasting Board of Governors, or
any agency or organization receiving a copy directly from the Office of Inspector General. No secondary
distribution may be made, in whole or in part, outside the Department of State, the Broadcasting Board of
Governors, or by other agencies or organizations without prior authorization by the Inspector General. Public
availability of the document will be determined by the Inspector General under the U.S. Code, 5 U.S.C. 552.
Improper disclosure of this report may result in criminal, civil, or administrative penalties.



                                                      UNCLASSIFIED

   U.S. DEPARTMENT OF STATE


 Audit of Department of State Compliance With 

Transparency and Reporting Requirements of the

   American Recovery and Reinvestment Act





                                      Point of Contact:
                                   David Zavada, Partner
                                4501 Ford Avenue, Suite 1400
                                    Alexandria, VA 22302
                              703-931-5600, 703-931-3655 (fax)

                                  dzavada@kearneyco.com

       Kearney & Company’s TIN is 54-1603527, DUNS is 18-657-6310, Cage Code is 1SJ14

                Contract is SAQMMA09D0002 Task Order is SAQMMA10F0534
KEARNEY& _ _______________
COMPANY                                                  1701 Duke Street, Suite 500, Alexandria, VA 223 14
                                                        P'_
                                                         -I:_
                                                            71::.13::.,93:..:'::.,5___
                                                                                   60::.0,:..:F___
                                                                                                X_ : 7::.0:..:3,9::.3___ 36::.55::.,_w,_,w,___
                                                                                                                      1.:..:             ___ kc___am::.c___yc::.'o::..co::.m___




March 19, 2010


Mr. Harold W. Geisel, Acting Inspector General
U.S. Department of State
Office of the Inspector General
2201 C Street, N .W.
Washington, DC 20520


Kearney & Company, P.c. (Kearney) is pleased to submit this performance audit report related
to the evaluation of the Department of State's (The Department's) compliance with the
transparency and accountability reporting requirements of the American Recovery and
Reinvestment Act (ARRA) of2009. This engagement was the second in a series of reports
conducted by the Office ofInspector General, Office of Audits (OIG/AUD) on the integrity of
data reported by the Department and recipients of ARRA funding . This performance audit was
designed to meet the objectives identified in the Objectives section and Appendix A, Scope and
Methodology of this report.

We conducted this performance audit from January 21, 20 I 0 through March 19, 20 I 0, in
accordance with Government Auditing Standards issued by the Comptroller General of the
United States. The purpose of this report is to communicate the results of our performance audit
and the related findings and recommendations.

We would like to thank the Department Offices involved for their cooperation during the course
of this engagement.




Kearney & Company, P.C.
                                                 TABLE OF CONTENTS
                                                                                                         PAGE #

Executive Summary ......................................................................................................          1

Background ..................................................................................................................     2

Objectives ....................................................................................................................   4

Audit Results ................................................................................................................    5


          Finding 1 - Data Quality Review Policies and Procedures Need Strengthening .... 6

          Finding 2 - Required Recovery Act Clauses Were Missing or Were Not Added to

          Contract Documents in a Timely Manner, Resulting in Reporting Errors ............. 10

          Finding 3 - Recovery Act Awards Were Not Properly Reported in FPDS ............... 11

          Finding 4 - DOJ Funds Received Were Not Reported Accurately on Weekly Agency 

          Report............................................................................................................... 12


Appendix A................................................................................................................... 14

      Scope and Methodology.................................................................................... 14

Appendix B................................................................................................................... 16

      Testing of Policies and Procedures ..................................................................... 16

Appendix C................................................................................................................... 20

      Office of Management Policy, Rightsizing and Innovation Response .................. 20

EXECUTIVE SUMMARY

At the request of the Office of the Inspector General (OIG), U.S. Department of State
(Department), Kearney & Company, P.C. (Kearney), evaluated the Department’s compliance
with the transparency and accountability reporting requirements of the American Recovery and
Reinvestment Act (Recovery Act) of 2009. These transparency and accountability reporting
requirements were established by the February 18, 2009, Office of Management and Budget
(OMB) Memorandum M-09-10, Initial Implementing Guidance for the American Recovery and
Reinvestment Act of 2009 (OMB M-09-10), and the April 3, 2009, OMB Memorandum M-09-15,
Updated Implementing Guidance for the American Recovery and Reinvestment Act of 2009
(OMB M-09-15).

As a basis for our performance audit, we used OMB M-09-10 and OMB M-09-15 to assess
compliance with Recovery Act reporting requirements. We reviewed and tested internal controls
surrounding the reporting of Recovery Act activities. (The scope and methodology are detailed in
Appendix A.)

We found that the Department had effectively implemented policies and procedures at the
Department bureau and office levels. Specifically:

      Transparency and reporting requirements, such as data quality reviews of recipient
       financial information, were adequately addressed.
      Department-wide risk management plans and measures were implemented to reduce the
       vulnerability of unauthorized use of Recovery Act funds.
      Budget execution is compliant with OMB regulations.
      Procurement actions have appropriate controls covering contract solicitation, post-award
       procedures, and contract monitoring. (The testing of policies and procedures is detailed in
       Appendix B.)

While the Department has taken significant steps to implement and execute these policies and
procedures, we noted several challenges that the Department must address to ensure that
Recovery Act objectives are met. Specifically:

      Data quality review policies and procedures need strengthening.
      Required Recovery Act clauses were missing or were not added to contract documents in
       a timely manner, resulting in reporting errors.
      Recovery Act awards were not properly reported in the Federal Procurement Data System
       (FPDS).

In addition, we found that inaccurate reporting of U.S. Department of Justice (DOJ) funds
received caused a $925,160 overstatement in obligations and outlays reported on the agency

                                                1

weekly reports. The Bureau of Resource Management, Deputy Chief Financial Officer (DCFO),
agreed to correct the reporting errors on subsequent weekly reports.

To improve internal controls and ensure that Recovery Act objectives are met, we recommend
that:

   	   The Office of Management Policy, Rightsizing and Innovation (M/PRI) coordinate with
        contracting officers in the Bureau of Administration, Office of Logistics Management,
        Office of Acquisitions Management (AQM), the Foreign Service Institute (FSI), and the
        International Boundary and Water Commission (IBWC) to establish Department-wide
        standard operating procedures for data quality reviews of recipient data.
       AQM implement additional reconciliation controls to validate recipient reports.
       AQM implement additional review procedures to ensure Recovery Act contract clauses
        are included timely in Recovery Act contracts.
       DCFO implement additional internal controls over Recovery Act data reported on public
        Websites and in FPDS.
       DCFO clarify inter-agency fund Recovery Act reporting procedures.

On May 26, 2010, M/PRI, with input from AQM, DCFO, FSI, and IBWC, responded to the
report and indicated agreement with the report’s five recommendations (the response is in
Appendix C).

BACKGROUND

The Recovery Act was signed into law by President Obama on February 17, 2009. The Act
includes measures to modernize the Nation’s infrastructure, enhance energy independence,
expand educational opportunities, preserve and improve affordable health care, provide tax
relief, and protect those individuals in greatest need.

The Department seeks to use Recovery Act funds to create and save jobs, repair and modernize
domestic infrastructure crucial to the safety of American citizens, enhance energy independence
and reduce global warming by ―greening‖ the Department’s facilities, and expand consular
services offered to American taxpayers.

Every taxpayer dollar spent on the economic recovery is subject to unprecedented levels of
transparency and accountability. The Recovery Accountability and Transparency Board is
responsible for coordinating and conducting oversight of Federal spending to prevent waste,
fraud, and abuse. One way to fulfill these responsibilities is by monitoring the accountability
objectives of the law by ensuring the following:




                                                 2

       Funds are awarded and distributed in a prompt, fair, and reasonable manner.
       Funds are used for authorized purposes, and every step is taken to prevent instances of
        fraud, waste, error, and abuse.
       Projects funded under the Recovery Act avoid unnecessary delays and cost overruns.
       Programs meet specific goals and targets and contribute to improved performance on
        broad economic indicators.

The Recovery Act also established new reporting requirements related to the awarding and use of
funds to promote transparency, which will help drive accountability for the timely, prudent, and
effective spending of Recovery Act dollars. Challenges associated with the new reporting
requirements include developing the systems and infrastructure for collecting and reporting the
required information, educating recipients about the reporting requirements, assessing the quality
of the reported information, and using the collected information effectively to monitor and
oversee Recovery Act programs and performance.

The Department received just over $600 million related to Recovery Act funds. The breakdown
of those funds is shown in Table 1.

Table 1. Breakdown of Recovery Act Funds

              Project                                  Project Description*                           Funding
                                                                                                    ($ in thousands)

                                    Construct a training facility capable of supporting hard
Hard Skills Training Center         skills security-related training for the Department and the        70,000
                                    wider foreign affairs community.
                                    Construct five new passport agencies (Vermont, Buffalo, El
Passport Facilities                 Paso, Atlanta, and San Diego), and expand services at two          15,000
                                    existing locations (Portsmouth and Hot Springs).
                                    Construct additional classroom and training capacity for
                                    information technology (IT), tradecraft, and language
National Foreign Affairs Training
                                    training in order to ensure that personnel being assigned           5,000
Center
                                    overseas have the specific IT and tradecraft skills and
                                    language training needed to perform essential job functions.
                                    Build an enterprise data center in the Western United
                                    States, and consolidate all domestic servers into four
                                    enterprise data centers. The program will provide a highly
Data Center                                                                                            120,000
                                    available, scalable, and redundant data center infrastructure
                                    that will substantially reduce the Department’s risk and
                                    provide for future IT growth.
IT Platform                                                                                            33,500
   Diplomatic Facility Telephone    The Department will replace antiquated telephone systems
                                                                                                       10,000
   System Replacement               at a number of diplomatic missions
                                    This project will replace antiquated computers essential for
  Replacement of Aging Desktop
                                    classified and unclassified processing domestically and at         13,000
  Computers
                                    285 overseas embassies and consulates.
  Mobile Computing                  This project will provide technological improvements to the        10,500

                                                      3

               Project                                          Project Description*                              Funding
                                                                                                                ($ in thousands)

                                           Department of State Mobile Computing Platform, increase
                                           the number of employees who have mobile access, and
                                           ensure continuity of operations for services such as
                                           passports and visas.
Cyber Security                                                                                                     98,500
  Tools To Guard Against and        This project is an effort to reduce the potential for
                                                                                                                   64,205
  Track Cyber Attacks               successful cyber attacks against the Department.
                                    This project will purchase new laboratory tools and
                                    electrical systems to strengthen and modernize the secure
  Strengthen Computer Hardware
                                    inspection processes that safeguard the Department’s
  (H/W) Security Testing and                                                                                        4,000
                                    computer equipment (that is, any device that uses a
  Forensic Investigations
                                    computer chip) from hackers, terrorists, and inside/outside
                                    physical hardware attacks.
                                    This program will deploy state-of-the-art computer security
  Safeguarding Citizens –
                                    systems to the Department headquarters building and                            25,366
  Computer Security Systems
                                    embassies worldwide.
                                    This project develops and delivers courses to enable the
                                    general Department of State work force and persons with
  Expanded Cyber Education                                                                                          4,929
                                    specific cyber security management responsibilities to
                                    protect against these new cyber threats.
U.S. Agency for International Development (USAID) **                                                               38,000
OIG***                                                                                                             2,000
                                    Recovery Act funding will be applied to the Rio Grande
                                    Flood Control System project to evaluate, through
IBWC                                environmental assessments and geo-technical                                    220,000
                                    investigations, needed repairs and/or rehabilitation of
                                    deficient portions of the flood control systems.
Total                                                                                                              602,000
*
  Project descriptions from the chart are contained in the Department of State Recovery Act External Program Plan.
**
   Reporting and accountability for funds transferred to USAID are the responsibility of USAID. This funding was not included
in the scope of our audit.
***
    OIG-related funding is reported in the Inspector General’s monthly report, not in agency reports. This funding was not
included in the scope of our audit.


OBJECTIVES

We reviewed selected Department processes to determine whether Recovery Act reporting and
data quality applications were in compliance with relevant Federal and Departmental guidance.
The primary objectives of the audit were the following:

    	   Assess Department compliance with financial and reporting requirements contained in
         the Recovery Act, including relevant OMB memorandums and Federal Acquisition
         Regulation (FAR) sections.


                                                              4

    	   Ensure the Department is meeting Recovery Act and OMB requirements for transparency
         and reporting, information collection and dissemination, budget execution, risk
         management, and contract awards.
        Assess and test the design and effectiveness of data quality review procedures to identify
         and prevent material omissions and significant reporting errors.
        Determine the accuracy and completeness of data reported through the
         federalreporting.gov portal, the Recovery.gov1 Website, and other Websites.

We conducted this performance audit from January through March 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions.

AUDIT RESULTS

We found that the Department had effectively implemented policies and procedures at the
Department bureau and office levels. Specifically:

        Transparency and reporting requirements, such as data quality reviews of recipient
         financial information, were adequately addressed.
        Department-wide risk management plans and measures were implemented to reduce the
         vulnerability of unauthorized use of Recovery Act funds.
        Budget execution is compliant with OMB regulations.
        Procurement actions have appropriate controls covering contract solicitation, post-award
         procedures, and contract monitoring. (The testing of policies and procedures is detailed
         in Appendix B.)

However, we noted several challenges that the Department must address in order to ensure that
OMB-imposed Recovery Act objectives are met and Recovery Act-related information is posted
to publicly reported Websites timely and accurately. We noted the following specific findings:




1
 Recovery.gov is the U.S. Government’s official Website, providing easy access to data related to Recovery Act
spending and allowing for the reporting of potential fraud, waste, and abuse.
                                                        5

Finding 1 - Data Quality Review Policies and Procedures Need Strengthening

Recipient Reported Data

We found that the Department was not keeping proper documentation associated with reviews of
the required recipient reports, as well as any follow-up to comments given to the recipients
regarding the content of the quarterly reports. We also noted inconsistencies between data
reported by recipients and data in the Global Financial Management System (GFMS2).
Specifically, documentation provided did not show how the number of jobs retained and/or
created or the funds received were reviewed for accuracy by the Department. In addition, we
noted differences between funds reported as received by the recipient and GFMS expenditures.
For 41 of 105 first quarter FY 2010 recipient reports, we noted differences totaling $14.9 million
between the amount reported as received and GFMS expenditures. The Department contract
expenditures as of December 31, 2009, were $50.5 million, creating a variance of 29.5 percent.
Department management stated that differences can occur because of the delay from when the
contractor sends an invoice to the Department and when the Department makes payment. We
believe this explanation is plausible for a portion of the noted errors, but it does not give reasons
for such a high variance.

We did note that IBWC kept a review checklist, which was a required attachment to all vendor-
submitted reports. This checklist was cited within IBWC’s standard operating procedures (SOP)
and noted throughout quarterly report testing. This checklist was also associated with IBWC’s
risk management program pertaining to Recovery Act-funded contracts that involve extensive
examination of all bidding contractors, which is performed by IBWC’s Internal Audit (IA)
Office. This examination of all bidding contractors includes a review of the contractor’s
financial statements and information submitted by the prospective contractor to find evidence of
several eligibility criteria determined by the IA Office. However, we noted that the IBWC
checklist did not include a review of the number of jobs created or retained. Similar
documentation was not used in data quality reviews conducted by AQM and FSI. Evidence of
data quality reviews conducted should show what fields were reviewed and how the data was
tested for accuracy. In addition, communication with the vendor (issue indentified and whether
it was resolved or uncorrected) should be documented. For four of eight AQM first quarter FY
2010 data quality reviews tested, we noted that the Department provided the download from
Recovery.gov showing that the Agency Reviewed Flag was marked as "Y," which indicates that
the specific field was reviewed by a designated agency official. However, AQM stated that
formal data quality reviews of the selected recipient reports were not performed. Since this
analysis was performed during the first recipient review period and was not found for any
recipient reports tested in the first quarter of FY 2010, we determined that the current

2
  GFMS is the Department’s accounting system of record and is the primary source used to develop the financial
statements and to support budgetary processes. GFMS provides a single integrated system, single information
source, standard transactions, and consistent editing and reporting, all of which send and receive information from
posts, bureaus, and serviced agencies; the Department of the Treasury; and OMB.
                                                          6

Department process ensures that reviews are conducted on all recipient reports submitted.
However, internal controls need strengthening to ensure that reporting errors are identified
during the reviews and are corrected.

Monitoring of Uncorrected Errors

During the audit, we noted that bureau and office contracting officers (CO) submitted comments
to seven recipients that involved incorrect Treasury Account Symbols (TAS). This issue
spanned nine separate contracts, as four of the contracts involved two different vendors. We
noted that one of the 105 first quarter FY 2010 recipient reports overstated the award amount by
$1 million (total Department contracts awarded were valued at $230 million). The bureau and
office COs indentified the error during the review period and submitted comments to the
recipient. However, these issues were not corrected by the recipient within the review period,
and the Department did not report the uncorrected error in the award amount to OMB, as
required by the December 18, 2009, OMB Memorandum M-10-08, Updated Guidance on the
American Recovery and Reinvestment Act – Data Quality, Non-Reporting Recipients, and
Reporting of Job Estimates (OMB M-10-08).

   Recommendation 1
   We recommend that the Office of Management Policy, Rightsizing and Innovation (M/PRI)
   coordinate with contracting officers in the Office of Acquisitions Management, the Foreign
   Service Institute, and the International Boundary and Water Commission to develop written
   comprehensive standard operating procedures (SOP) for both Department of State-level and
   bureau-level activities based on an evaluation of component-developed processes, component
   characteristics, and best practices of other Federal agencies. Specifically, SOPs related to
   recipient data reviews should
      Ensure that internal Department Recovery Act transactions are properly documented and
       clearly identified as Recovery Act activity in the supporting documentation.
      Ensure proper implementation of OMB M-10-08 to
            ­   Document and implement procedures for reviewing jobs created or retained.
            ­   Employ a coordinated approach for identifying noncompliant recipients and
                addressing any systemic and chronic reporting problems.
            ­   Report material omissions and uncorrected significant errors.
   	 Document and enforce records management policies for data quality and reporting
       initiatives, including the possible use of a standard form checklist to capture evidence of
       data quality reviews.

   M/PRI Response - M/PRI concurred with the recommendation, stating that it ―will work
   with AQM, FSI and IBWC to develop a common SOP, which will detail the process by
   which the Department . . . handles weekly reporting, ad hoc reporting, and quarterly recipient
   reporting.‖ M/PRI further stated that because OMB provides ―online reporting tools


                                                7

designed to assist agencies in reporting,‖ it does not believe that ―a duplicative paper-based
review is necessary or in keeping with the intent of Recovery Act reporting.‖

Recommendation 2
We recommend that the Office of Management Policy, Rightsizing and Innovation (M/PRI),
pursuant to the action taken for Recommendation 1 to develop written standard operating
procedures, determine whether sufficient resources have been assigned to ensure that
Recovery Act objectives are met. If not, M/PRI should contact specific Department of State
entities to formulate an action plan to provide contracting officer coverage for data quality
reviews of recipient data.

M/PRI Response – M/PRI concurred with the recommendation, stating that based on the
results of the second quarter FY 2010 recipient report, it ―believes all offices have
satisfactory staff to complete the necessary data quality reviews of recipient data.‖ M/PRI
stated that it will continue to provide oversight of AQM, FSI, and IBWC contracting offices
that conduct data quality reviews of recipient data ―as long as such reporting is mandated by
OMB to ensure that coverage is sufficient.‖

M/PRI Additional Comments Related to Findings 1 and 2 – In its response, M/PRI stated
that ―a significant feature‖ in managing Recovery Act funds is the use of the ―central,
government-wide reporting database (Federalreporting.gov), in which data is available‖ to
the public, Congress, OMB, GAO, vendors, and agencies. According to M/PRI, the
Department ―is able to draw daily reports of recipient data, including all vendor content, our
comments, and responses thereto,‖ from this database.

M/PRI stated that the ―glitches‖ noted in the audit were ―system-start up errors‖ and that
based on its experience with the second quarter FY 2010 reporting period, ―the issues have
been resolved‖ and that the system ―now accurately indicates when/if a specific report is
reviewed.‖ M/PRI further stated, ―There is no requirement by OMB to maintain a duplicate
set of records to record reviews, and we believe this finding runs contrary to the intent of the
central database.‖

According to M/PRI, AQM examines ―[e]very element of every report submitted . . .
including accuracy of funds.‖ M/PRI further stated that it can demonstrate how it downloads
data for vendor reports and that it uses ―advanced formulas and pivot tables‖ to compare
data. M/PRI ―agree[d]‖ that there were ―difficulties‖ in following up on reporting errors
during the first reporting period but that ―the new business processes‖ in AQM have
improved follow-up. M/PRI also noted that ―there is no requirement‖ in OMB Memorandum
M-10-08 to report uncorrected errors to OMB or the Recovery Board.

Regarding jobs, M/PRI stated that ―there is no requirement‖ for the contracting officer to
review job numbers for accuracy but that if the job numbers ―appear to be greater or less than
                                              8

the number warranted by the size or scope of the transaction,‖ the OMB requirement is to
―’encourage recipients to make corrections that ensure accurate data reporting.’‖ M/PRI
further stated that if the contracting officer questions the number of jobs created and the
vendor insists that the vendor’s number is correct, the contracting officer has ―recourses for
investigation,‖ such as referring the matter to OIG for investigation if ―fraud or other ill
intent is suspected.‖

OIG Reply

Since audit fieldwork ended on March 12, 2010, which was prior to the second quarter FY
2010 period of review, any changes made by AQM during that period were outside the scope
of the audit. Any changes in the process and improvements made by the Department can be
submitted to OIG during the compliance process. We agree that documentation does not
have to be in hard-copy form, and a checklist was included for the Department’s
consideration to show what IBWC was using. However, documentation should show how
the data elements of the recipient reports were reviewed. OMB’s online tool allows agencies
to flag the recipient report as reviewed, and it documents comments made to the recipient.
However, the tool does not show how the data was reviewed. If analyses and comparisons
are being performed on downloaded data and are readily available upon request, the analyses
and comparisons would be sufficient documentation of a review being performed.

Regarding the requirement to report uncorrected errors to OMB, the Department should
consider, for its quality assurance and transparency procedures, the information provided in
OMB M-10-08 (para. 3.1, ―Significant Errors‖), which states:

       If the recipient did not make the requested correction(s) for the current
       reporting period, or submit a reasonable explanation of why the data was
       not incorrect, then the award report is to be considered to have significant
       errors. For these significant errors, agencies shall complete a template on
       a MAX Community web page (Federal access only) by providing the
       requested data fields to be corrected, the comment requesting correction,
       the data that in the agency’s estimate best corrects the error, or why the
       recipient did not correct the data or supply a reasonable explanation that
       required no further action by the agency.

The MAX community web page is managed by OMB. This is the target reference in the part
of the finding that states, ―The Department did not report the uncorrected error in the award
amount to OMB, as required by the December 18, 2009, OMB Memorandum M-10-08.‖

Finally, the finding and recommendation focus on jobs created/retained and on the lack of
documentation provided to support the required reviews. Accuracy, as referenced, was
implied as ―defined by OMB.‖ However, jobs created is one of the fields that an agency is
                                             9

   required to review to identify significant errors. We agree that OMB requires that the
   number be reviewed only for reasonableness; however, the Department did not provide
   documentation during the audit showing how jobs created or retained were reviewed.
   Additionally, guidelines were not developed to assist reviewers in determining
   ―reasonableness.‖ Errors in jobs created or retained are considered to be significant errors,
   and OMB requires agencies to report uncorrected errors and to not merely ―encourage
   recipients to make corrections that ensure accurate data reporting.‖

   OIG considers Recommendations 1 and 2 resolved, pending receipt and review of
   information that details the process by which the Department addresses weekly reporting, ad
   hoc reporting, and quarterly recipient reporting.

Finding 2 – Required Recovery Act Clauses Were Missing or Were Not Added to Contract
Documents in a Timely Manner, Resulting in Reporting Errors

Our audit determined that required Recovery Act clauses stated in FAR section 52.204-11 were
not added to six Recovery Act-funded contracts at the point of contract inception, as required by
OMB M-09-10. In addition, three Recovery Act-funded contracts were not properly tracked as a
result of this omission.

According to OMB M-09-10, agencies must ensure, for all contracts involving Recovery Act
funds, the inclusion of ―terms and conditions in contract documents necessary for effective
implementation of Recovery Act data collection and accountability requirements.‖

In addition to OMB M-09-10, the Department should insert specific contract clauses relating to
the Recovery Act in the original contract documents. The purpose of these clauses is to identify
the contract as a Recovery Act-funded activity and to establish the various requirements for both
the contractor and the Department. These required clauses are stated in FAR section 52.204-11.

We found three of 142 GFMS contracts in which the required Recovery Act language and
clauses were not included in the original contract documentation, and the Department was not
aware that the contracts were Recovery Act funded. In these cases, the language was included in
a subsequent modification, which was issued after the date of the original contract. We noted an
additional three of 142 GFMS contracts in which the designated CO was in the process of
inserting the required Recovery Act clauses in a contract modification issued subsequent to
contract inception. Of the six contract errors identified, three contracts, totaling $1.6 million in
award value, had associated outlays totaling $1 million, resulting in data reporting errors. For
these three contracts, the related contractors did not submit the required quarterly reports because
the Department had not inserted the required Recovery Act clauses.

Ultimately, this error resulted in material omissions in fourth quarter FY 2009 and first quarter
FY 2010 vendor reports submitted to OMB. The control number used by M/PRI to ensure that
                                                10

all recipients had reported included only CO known contracts instead of all contracts receiving
Recovery Act funds. This error also resulted in incomplete Recovery Act data being reported in
FPDS and posted to USASpending.gov.

   Recommendation 3
   We recommend that the Office of Acquisitions Management (AQM) (a) implement
   additional internal controls to verify that a quarterly report is submitted for all contracts
   meeting OMB thresholds and that are listed in GFMS for which the related contractors have
   not issued a final report and (b) implement additional controls Department of State-wide to
   ensure that all contracts charged to Recovery Act funds are reviewed to verify that the
   contracts contain required Recovery Act clauses in accordance with the Federal Acquisition
   Regulation (section 52.204-11).

   M/PRI Response
   M/PRI, responding for AQM, concurred with the recommendation.

   OIG Reply
   The draft report originally contained identical recommendations addressed to the contracting
   offices in AQM, FSI, and IBWC. However, based on M/PRI’s request, the three
   recommendations have been changed into a single recommendation (No. 3), which is
   addressed only to AQM. The recommendations in the draft report have been renumbered to
   reflect this change. Based on the response, OIG considers Recommendation 3 resolved,
   pending receipt and review of an action plan to implement the recommendation.

Finding 3 – Recovery Act Awards Were Not Properly Reported in FPDS

We determined that the Department was not properly reporting Recovery Act obligations within
FPDS and that the subsequent posting to USASpending.gov was inaccurate. Specifically, there
were missing or misidentified entries within FPDS for contracts overseen by FSI and AQM. We
did not note any errors involving FPDS entries for contracts overseen by IBWC. IBWC
implemented additional internal controls by having its internal auditor perform reconciliations
between FPDS and supporting Recovery Act contract data during both quarterly recipient
reporting periods.

OMB M-09-10 states, ―Recovery Act award obligations will be reported according to the current
procedures for [USASpending.gov].‖ In terms of actions specific to contracts, OMB M-09-10
further states: ―Information will be reported to USASpending.gov through FPDS. When
entering data in FPDS on any action (including modifications) funded by the Recovery Act,
agencies must enter the Treasury Account Symbol (TAS) in the Description of Requirement
code.‖



                                               11

During our audit, we downloaded data on Recovery Act activity for the Department from
USASpending.gov and compared it with data in the Department’s contract listing. We noted five
contracts overseen by FSI that did not have any corresponding award entries posted on
USASpending.gov. FSI officials stated that technical problems with FPDS experienced by FSI
caused missing and erroneous data fields for all FSI contracts. We also noted 12 contracts
overseen by AQM that were not posted to USASpending.gov. These contracts either were not
entered into FPDS or were not properly identified as Recovery Act awards.

       Recommendation 4
       We recommend that the Bureau of Resource Management, Deputy Chief Financial
       Officer (DCFO), implement additional internal controls and perform periodic reviews
       and reconciliations of GFMS data posted to the Federal Procurement Data System and
       USASpending.gov to ensure that data is accurate and includes all of the appropriate and
       correct Treasury Account Symbols and Treasury Account Fund Symbol codes pertaining
       to Recovery Act activities in accordance with OMB M-09-15.

       RM Response
       M/PRI, responding for RM, concurred with the recommendation.

       OIG Reply
       Based on the response, OIG considers Recommendation 4 resolved, pending receipt and
       review of an action plan to implement the recommendation.

Finding 4 – DOJ Funds Received Were Not Reported Accurately on Weekly Agency Reports

We determined that the Department was not accurately reporting Recovery Act funds transferred
from a separate Federal agency. Specifically, funding under a reimbursable agreement with DOJ
was not accurately reported on the Department’s required weekly financial and weekly activity
reports.

OMB M-09-15 states: ―[A]ll agencies receiving Recovery Act funds will submit the following
information to OMB, representing cumulative, year-to-date recovery activity by Treasury
Account: Total Obligations and Gross Outlays, as defined in this section. These amounts should
be updated by COB Tuesday for all activity through the previous Friday.‖

During our audit, we noted that the Department was accountable for reimbursable funds of
$925,160 from DOJ. The Department accurately reported on its own funds, but it incorrectly
reported obligations and outlays for funds received from DOJ. Instead of reporting actual
obligations and outlays, the Department reported the total amount of funds received from DOJ.
In addition, actual DOJ activity was incorrectly included in the reported Department activity for
Fund 19-0112; therefore, both obligations and outlays were overstated by $925,160 on the
December 31, 2009, weekly report. The Department corrected the weekly report to show actual
                                                12

obligations and outlays, and Department officials stated that the Department will work to ensure
that DOJ activity is not included in Department activity for Fund 19-0112 for subsequent weekly
reports.

       Recommendation 5
       We recommend that the Bureau of Resource Management, Deputy Chief Financial
       Officer (DCFO), ensure that any inter-agency funds received are accurately reported
       according to OMB M-09-15 and that the DCFO clarifies that all Recovery Act funds
       transferred to the Department of State from other agencies are to be included in weekly
       financial and activity reports.

       RM Response
       M/PRI, responding for RM, concurred with the recommendation.

       OIG Reply
       Based on the response, OIG considers Recommendation 5 resolved, pending receipt and
       review of an action plan to implement the recommendation.




                                               13

                                                                                        APPENDIX A

                                          Scope and Methodology
As a basis for Kearney and Company’s performance audit, the audit team used Office of
Management and Budget (OMB) Memorandums M-09-10 and M-09-15 to determine whether
the Department of State was in compliance with American Recovery and Reinvestment Act fund
reporting requirements. Kearney reviewed Recovery Act activity through December 31, 2009,
including 142 contracts awarded, $232 million in obligations, and $49 million in outlays.
Kearney also conducted interviews with individuals from the three contracting offices in charge
of reviewing recipient reporting—the Office of Acquisitions Management (AQM), the Foreign
Service Institute (FSI), and the International Boundary and Water Commission (IBWC).

We conducted this performance audit from January through March 2010 in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objectives.

To meet the performance audit objectives, the audit team took the following actions:

      	   Performed walkthroughs and interviews to gain an understanding of the Department’s
           processes related to Recovery Act funds and to determine whether the Department had
           documented standard operating procedures (SOP) relating to Recovery Act funds.
      	   Tested a sample of 20 of 91 quarterly recipient reports for the fourth quarter of FY 2009
           and 20 of 105 quarterly recipient reports for the first quarter of FY 2010 that pertained
           to Recovery Act-funded contracts overseen by AQM, FSI, and IBWC. Each report was
           tested for proper compliance with OMB regulations as outlined in OMB M-09-10 and
           OMB M-09-15.
      	   Verified that all weekly agency reports were submitted and were in compliance with
           OMB regulations as outlined in OMB M-09-10 and OMB M-09-15.
      	   Tested a sample of 20 of the 45 weekly agency reports submitted through December 31,
           2009, on the Website recovery.gov for proper compliance with OMB regulations as
           outlined in OMB M-09-10 and OMB M-09-15.
      	   Tested a sample of 45 expenditures that pertained to Recovery Act-funded contracts
           during 2009 to ensure that the selected transaction was a valid and complete expenditure
           and was properly classified under the Recovery Act.
      	   Performed a full reconciliation to compare contract award amounts and expenditures
           reported in fourth quarter FY 2009 and first quarter FY 2010 recipient reports, the Global
           Financial Management System (GFMS) contract listing, GFMS expenditures through


    Obligations and outlays reviewed included contracts and administrative expenses.
                                                          14

     December 31, 2009, and USASpending.gov data to ensure that reported Recovery Act
     data was accurate and complete.
	   Tested a sample of 20 of 142 contracts, which represented greater than 75 percent of the
     total value of all Recovery Act contracts during 2009, to gain assurance that all Recovery
     Act-funded contracts were in compliance with Recovery Act and OMB regulations.
	   Reviewed risk management policies and procedures for the Department to determine
     whether the policies and procedures were in compliance with OMB requirements.
	   Obtained the Agency Recovery and Program plan and ensured that it was in compliance
     with OMB regulations.
	   Ensured that the Department had established unique Treasury Account Fund Symbols for
     all Recovery Act funding and ensured that all funds were clearly distinguishable from
     non-Recovery Act funds in all agency financial systems.




                                             15

                                                                                     APPENDIX B

                           Testing of Policies and Procedures
The Department of State effectively implemented policies and procedures at the Department
bureau and office levels. The results of substantive testing of Department policies and
procedures for transparency and reporting, risk management, budget execution, and actions
specific to award types are as described.

Transparency and Reporting

The Department addressed several key areas relating to transparency and reporting, including
weekly reporting, award-level transaction data feeds, agency recovery plan/program-specific
plans, Website requirements, and quarterly reporting.

   	   The Department is performing data quality reviews and delivering the required weekly
        financial and activity report and funding notification report. This oversight includes a
        multi-level review of weekly reporting by the contracting office and the Office of
        Management Policy, Rightsizing and Innovation (M/PRI), of which the latter has
        oversight for all Recovery Act activity. Both content and technical reviews are
        performed on the weekly agency reports, and all documentation must be certified by the
        Department’s Senior Accountable Official, the Undersecretary of State for Management,
        prior to submission to OMB for posting on Recovery.gov. We noted these activities to be
        compliant with regulations set forth in OMB M-09-10 and OMB M-09-15.
   	   The Department has established separate Treasury Account Fund Symbols (TAFS) within
        the Federal Procurement Data System (FPDS). These TAFSs were communicated to the
        appropriate contracting offices within the Department with the understanding that they
        were to be used for all transactions pertaining to Recovery Act-funded activities. We
        noted these activities to be compliant with regulations set forth in OMB M-09-10 and
        OMB M-09-15.
   	   The Department has directed each office involved with Recovery Act activities to
        develop and execute a program-specific plan. These program-specific plans, along with
        the Department’s External Program Plan, are available for public review on
        Recovery.gov. Both of these actions are in compliance with regulations pertaining to
        agency recovery plan/program-specific plans within OMB M-09-10 and OMB M-09-15.
   	   The Department has designed and launched a separate section of its own Website that is
        dedicated to Recovery Act-funded activities, which is consistent with regulations outlined
        in OMB M-09-10 and OMB M-09-15. The Website address is www.state.gov/recovery.
   	   The Department’s contracting offices are performing data quality reviews of the recipient
        quarterly reports submitted on federalreporting.gov. These reviews include
        communication of any issues, questions, or other comments by the related contracting
        officer (CO) to the vendor’s contracting officer’s representative (COR). In addition, the
                                                16

       CO follows up with the recipients regarding issues identified by the COR. Also, the
       designated reviewers have access to the Website federalreporting.gov, which contains all
       of the vendor-supplied information, to ensure that only the appropriate individuals can
       make comments or issue questions involving the vendor-supplied information. We noted
       these activities to be compliant with regulations set forth in OMB M-09-10 and OMB M-
       09-15.

Risk Management

The Department has implemented and executed two levels of risk management plans: one for
Department-wide risk management and one for each individual bureau involved with Recovery
Act activities.

      The Department has established the Undersecretary of Management as the Senior
       Accountable Official. In addition, the Department has leveraged several preexisting
       offices and committees for oversight functions, including the Management Control
       Steering Committee, the Senior Assessment Team, and the Office of Inspector General
       (OIG). Implementation of the Recovery Act is an agenda item when these committees
       and offices meet. The identification and resolution of any issues in management or
       internal controls are overseen by these committees. We noted these activities to be
       compliant with regulations set forth in OMB M-09-10 and OMB M-09-15.
      The Department has undertaken measures with the intention of reducing the risk that
       funds would be used for unauthorized purposes or invite fraud, waste, and/or abuse.
       These measures include financial reporting and funds control and audits, reviews, and
       other risk management activities by the Department. In addition, the Department requires
       all Assistant Secretaries (with input from their senior management and ambassadors) to
       perform risk assessments and provide an annual statement of assurance related to
       Recovery Act programs. We noted these activities to be compliant with regulations set
       forth in OMB M-09-10 and OMB M-09-15.
      The Department requires that all offices follow, at a minimum, standards in the Federal
       Acquisition Regulation (FAR) for risk management pertaining to contract solicitation and
       monitoring. The Foreign Service Institute (FSI) and the International Boundary and
       Water Commission (IBWC) have each developed a separate risk management program:

          ­   IBWC has developed a risk management program pertaining to Recovery Act-
              funded contracts that involves extensive examination of all bidding contractors
              and which is performed by IBWC’s Internal Audit (IA) Office. This examination
              of all bidding contractors includes review of the contractor’s financial statements
              and information submitted by the prospective contractor to find evidence of
              several eligibility criteria determined by the IA Office. IBWC’s Internal Auditor
              used the OMB risk management criteria to develop a risk-assessment plan and
              crafted two tactical audits, introduced new supplemental controls, conducted
                                               17

               fraud training, and required financial disclosures to address those risks. We noted
               these activities to be compliant with regulations set forth in OMB M-09-10 and
               OMB M-09-15.
           ­   FSI has instituted and executed a risk management plan that involves multi-level
               oversight of all Recovery Act-funded contracts. The first level of oversight is
               completed by an experienced CO, and the second level is completed by FSI’s
               Director of Acquisitions. Since several contracts under FSI involve construction
               on FSI’s main campus, all oversight is performed at FSI and any questions or
               concerns are addressed directly to the on-site contractor’s representative. We
               noted these activities to be compliant with regulations set forth in OMB M-09-10
               and OMB M-09-15.

Budget Execution

The Department has implemented and executed several programs associated with budget
execution of Recovery Act-funded activities.

   	   The Department has created TAFSs within FPDS that are specifically assigned to
        Recovery Act activities. These TAFSs, which are different from TAFSs used for
        transactions that occur during the normal course of business, are designed to distinguish
        Recovery Act-funded transactions from other non-Recovery Act transactions. In
        addition, the Department has established and required use of separate internal fund codes
        and associated point limitations to discretely track, report, and control Recovery Act
        funds. We noted these activities to be compliant with regulations set forth in OMB M-
        09-10 and OMB M-09-15.

Actions Specific to Award Types

While OMB regulations span multiple types of Recovery Act-funded activities, the Department
awarded only contracts, as opposed to grants or loans, as of December 31, 2009. The three main
programs pertaining to Recovery Act-funded contracts that the Department has implemented and
executed are contract solicitation, post-award procedures, and contract monitoring.

   	   The Department has required that all bureaus follow FAR (Part 5, ―Publicizing Contract
        Activities‖) requirements for pre-solicitation and award notices. Once this information is
        posted on fbo.gov, all remaining communication involving contract solicitation is
        completed by the assigned CO. We noted these activities to be compliant with
        regulations set forth in OMB M-09-10 and OMB M-09-15.
   	   The Department has required that the CO post a notice to the public on the Department’s
        Recovery Act Website linked to the appropriate section on Recovery.gov once bidding is
        complete and an award has been made to a contractor. This notice is required for all


                                                18

     Recovery Act-funded contracts with a value over $500,000. We noted these activities to
     be compliant with regulations set forth in OMB M-09-10 and OMB M-09-15.
	   The Department has required that COs or their approved representatives become
     responsible for monitoring contracts in order to ensure contract performance and to
     ensure that requirements are being followed. We noted these activities to be compliant
     with regulations set forth in OMB M-09-10 and OMB M-09-15.




                                           19

KEARNEY&
COMPANY     Certified Public Accountants
            and Consultants



                                                                                      Appendix C



        .rrl<l                                        United States Deparbnenl of State




      *
      "".         I                                   Washington, D.C. 20520
            -;
                                                      wwtv.state.gov



                                                         MAY 2 6
       Mr. Harold W. Geisel
       Inspector General (Acting)
       Office of the Inspector General (OIG)
       United States Department of State
       SA-3, Room 8100
       2121 Virginia Ave. N.W.
       Washington, D.C. 20520

       Dear~~
      Thank you for your March lOth letter regarding the audit of the implementation of
      funds that the Department of State received under the American Recovery and
      Reinvestment Act of2009 (ARRA).

      I, along with staff from the Office of Acquisitions Management, the Foreign
      Service Institute, and the International Boundary and Water Commission, have
      read your findings and recommendations. and are pleased to respond to
      Recommendations 1-7 (Attachment I). We have also commented on two of your
      findings.

      Please contact me if you have any questions or concerns.




      Attachment: Responses to the Draft Report on Audit ofDepartment ofState
      Compliance With Transparency and Reporting Requirements of the American
      Recovery and Reinvestment Act




                                               20

KEARNEY&
COMPANY     Certified Public Accountants
            and Consultants




      cc:    OIG - Richard Astor
             AlLMlAQM - Cathy Read
             FSllEX - Catherine Russell
             IBWC - Edward Drusina
             RMlDCFO - Chris Flaggs




                                           21

KEARNEY&
COMPANY    Certified Public Accountants
           and Consultants




                                          Attacbment 1


      Finding 1 - Data Quality Review Policies and Procedures Need Strengthening

      Recipient Reported Data
      We Jound that the Department was not keeping proper documentation associoted
      with reviews of the required recipient reports, as well as any follow-up to
      comments given to the recipients regarding the content oj the quarterly reports. We
      also noted inconsistencies between data reported by recipients and data in the
      Global Financial Management System (GFMS2). Specifically, documentation
      provided did not show how the number oJjobs retained and/or created or the fonds
      received were reviewedJor accuracy by the Department.

      Response:

      A significant feature in the management of Recovery Act fimds is the use ofa
      central, government-wide reporting database (Federalreporting.gov), in which data
      is available to the public, to Congress, to the Office of Management and Budget
      (OMB), the Government Accountability Office (GAO), the vendors, and the
      agencies. From this database, the Department is able to draw daily reports of
      recipient data, including all vendor content, our comments and responses thereto.

      We believe that the glitches noted in the audit were system-start up errors, and
      based on our experience with the Q2 FY20 I 0 reporting period, the issues have
      been resolved. The system now accurately indicates when/if a specific report is
      reviewed. There is no requirement by OMB to maintain a duplicate set of records
      to document reviews, and we believe this finding runs contrary to the intent of the
      central database.

      Every element of every report submitted is now examined by the Office of
      Acquisitions Management (AQM), including accuracy of fimds. We can
      demonstrate how we download data for all vendor reports, and we use advanced
      formulas and pivot tables to compare our data. Copies of Department data are
      available upon request.

      We agree that during the first reporting period (Q4, FY2009), there were
      difficulties following up on reporting errors. We believe the new business
      processes in AQM have improved follow-up. We would also like to state that




                                               22

KEARNEY&
COMPANY    Certified Public Accountants
           and Consultants




      there is no requirement in OMB memo M-l 0-08 to report uncorrected errors to
      OMB or the Recovery Board.

      Regarding jobs, there is no requirement for the contracting officer to review job
      numbers for accuracy. When jobs numbers appear to be greater or less than the
      number warranted by the size or scope of the transaction, the O!vfB requirement is
      to "encourage recipients to make corrections that ensure accurate data reporting."
      If the contracting officer questions the number of jobs created, and the vendor
      insists that their number is correct, the contracting officer has several recourses for
      investigation. For suspected fraud or other ill intent, the matter would be referred
      to the OIG for investigation.

      Recommendation I:
      We recommend that the Office of Management Policy, Rightsizing, and Innovation
      (MlPRI) coordinate with contracting officers in the Office of Acquisitions
      Management (AQM), the Foreign Service Institute (FSI), and the International
      Boundary and Water Commission (IBWC) to develop written comprehensive
      standard operating procedures (SOP) for both Department of State-level and
      bureau-level activities based on an evaluation of component-developed processes,
      component characteristics, and best practices of other Federal agencies.
      Specifically, SOPs related to recipient data reviews should
            • Ensure that internal Department Recovery Act transactions are properly
              documented and clearly identified as Recovery Act activity in the
              supporting documentation.
            • Ensure proper implementation of OMB M- I 0-08 to
                   - Document and implement procedures for reviewing jobs created or
                     retained.
                   - Employ a coordinated approach for identifYing noncompliant
                     recipients and addressing any systemic and chronic reporting
                     problems.
                   - Report material omissions and uncorrected significant errors.
            • Document and enforce records management policies for data quality and
              reporting initiatives, including the possible use of a standard fonn checklist
              to capture evidence of data quality reviews.

      Response:
      Concur. MlPRi will work with AQM, FSI and IBWC to develop a common SOP,
      which will detail the process by which the Department of State handles weekly
      reporting, ad hoc reporting, and quarterly recipient reporting. However, as OMB




                                                 23

KEARNEY&
COMPANY    Certified Public Accountants
           and Consultants




      provides online reporting tools designed to assist agencies in reporting, we do not
      believe a duplicative paper-based review is necessary or in keeping witb tbe intent
      of Recovery Act reporting.

      Recommendation 2:
      We recommend tbat tbe Office of Management Policy, Rightsizing, and Innovation
      (MJPRl), pursuant to the action taken for Recommendation 1 to develop written
      standard operating procedures, determine whether sufticient resources have been
      assigned to ensure that Recovery Act objectives are met. If not, MlPRl should
      contact specific Department of State entities to formulate an action plan to provide
      contracting officer coverage for data quality reviews of recipient data;

      Response:
      Concur. Based on Q2 FY2010 recipient reporting results, MlPRl believes all
      oftices have satisfactory staff to complete the necessary data quality reviews of
      recipient data. MlPRl will continue to provide oversight of AQM, FSI and IBWC
      contracting offices conducting data quality reviews of recipient data for as long as
      such reporting is mandated by orvrn to ensure that coverage is sufficient.


      Finding 2 - Required Recovery Act Clauses Were Missing or Were Not Added to
      Contract Documents in a Timely Manner, Resulting in Reporting Errors

      Our audit determined that required Recovery Act clauses stated in FAR section
       52.204-/ / were not added to six Recovery Act-funded contracts at the point of
      contract inception, as required by OMB M-09- / O. In addition, three Recovery Act-
      funded contracts were not properly tracked as a result a/this omission.

      At the onset of reporting in mid-2009, a few transactions were assigned to
      contracting officers unfamiliar witb ARRA requirements. AQM has undertaken
      repeated outreach and education efforts, ensuring tbat all staff is familiar witb
      requirements and tbat all contracts are currently up to date. In addition, AQM
      relies on the program office to follow ILMS ARIBA instructions for requisitioning
      process, including identification of all Recovery Act transactions in the
      procurement request. As a result of finding tbe !bree previously unknown ARRA
      orders, AQM asked tbat tbe ILMS helpdesk issue a reminder to all ARIBA system
      users. Resource Management has also agreed to provide a GFMS quarterly report
      to AQM in order to compare records.

      Recommendation 3:




                                                24

KEARNEY&
COMPANY    Certified Public Accountants
           and Consultants




      We recommend that contracting officers in the Office of Acquisitions Management
      (AQM) (a) implement additional internal controls to verifY that a quarterly report
      is submitted for all contracts meeting Office of Management and Budget (OMB)
      thresholds and that are listed in the Global Financial Management System (GFMS)
      for which the related contractors have not issued a final report and (b) implement
      additional controls Department of State-wide to ensure that all contracts charged to
      Recovery Act funds are reviewed to verifY that the contracts contain required
      Recovery Act clauses in accordance with the Federal Acquisition Regulation
      (section 52.204-11).

      Response:
      Concur. We would like this recommendation to be addressed to the responsible
      office, the Office of Acquisitions Management (AQM), rather than individual
      contracting officers. Since Q I FY201O, AQM has begun a daily extract from
      Fedcralrcporting.gov that is sent to FSI and IBWC for review. In addition, the
      Department has submitted to OMB a MasterFile List of all awards subject to
      Section 1512 reporting requirements. The list of recipient reports is compared
      against the MasterFile for completion.

      We ask that the OIG consider combining recommendations 3, 4, and 5 into one
      recommendation.

      Recommendation 4:
      We recommend that contracting officers in the Foreign Service Institute (FSI) (a)
      implement additional internal controls to verifY that a quarterly report is submitted
      for all contracts meeting Office of Management and Budget (OMB) thresholds and
      that are listed in the Global Financial Management System (GFMS) for which the
      related contractors have not issued a final report and (b) implement additional
      controls Department of State-wide to ensure that all contracts charged to Recovery
      Act funds are reviewed to verify that the contracts contain required Recovery Act
      clauses in accordance with the Federal Acquisition Regulation (section 52.204-11).

      Response:
      Concur. Controls are already in place. Due to a limitation of personnel who are
      allowed to review data posted on Recovery.gov (total of three staff per Agency),
      contracting officers at FSI do not have access to the quarterly reports. As noted in
      the response to Recommendation 3, AQM sends to FSI an excel spreadsheet,
      which is extracted trom the quarterly report in Recovery.gov on a daily basis
      during the reporting period, and FSI contracting officers review this printout for
      accuracy. If during the reporting period it is noted that a contractor has failed to




                                                25

KEARNEY&
COMPANY    Certified Public Accountants
           and Consultants




      report, FSI sends the contractor a reminder email regarding the requirement to
      report.
      Recommendation     5:
      We recommend that contracting officers in the International Boundary and Water
      Commission (rnwC) (a) implement additional internal controls to verifY that a
      quarterly report is submitted for all contracts meeting Office of Management and
      Budget (OMB) thresholds and that are listed in the Global Financial Management
      System (GFMS) for which the related contractors have not issued a final report and
      (b) implement additional controls Department of State-wide to ensure that all
      contracts charged to Recovery Act funds are reviewed to verifY that the contracts
      contain required Recovery Act clauses in accordance with the Federal Acquisition
      Regulation (section 52.204- 11).

      Response:
      Concur. IBWC will submit a report documenting reviews of recipient reporting on
      a quarterly basis in compliance with OMB guidance. In addition, the report will
      include a reconciliation report between the Global Financial Management System
      (GFMS), FPDS, and FedBizOps for all open contracts expected to report each
      quarter. The Department will ensure that contracts charged to Recovery Act funds
      will continue to be closely reviewed to ensure each contain the required Recovery
      Act clauses in accordance with the Federal Acquisition Regulation (section 52.204-
      II). This will be accomplished through the established peer review process per
      Policy and Procedures Manual, May 6, 20 I O. The reviews will be documented,
      dated, and filed as required.


      Finding 3 - Recovery Act Awards Were Not Properly Reported in FPDS

      Recommendation 6:
      We recommend that the Bureau of Resource Management, Deputy Chief Financial
      Officer, implement additional internal controls and perfonn periodic reviews and
      reconciliations of Global Financial Management System data posted to the Federal
      Procurement Data System (FPDS) and USASpending.gov to ensure that data is
      accurate and includes all of the appropriate and correct Treasury Account Symbol
      and Treasury Account Fund Symbol codes pertaining to Recovery Act activities in
      accordance with Office of Management and Budget Memorandum M-09-15.

      Response:




                                              26

KEARNEY&
COMPANY    Certified Public Accountants
           and Consultants




      Concur. Resource Management has included ARRA reporting within the scope of
      its data quality plan, and will enhance internal controls and perfonn the referenced
      reviews and reconciliations.


      Finding 4 - DOJ Funds Received Were Not Reported Accurately on Weekly
      Agency Report

      Recommendation 7:
      We recommend that the Bureau of Resource Management, Deputy Chief Financial
      Officer (DCFO), ensure that any inter-agency funds received are accurately
      reported according to Office of Management and Budget Memorandum M-09- IS
      and that the DCFO clarifies that all Recovery Act funds transferred to the
      Department of State from other agencies are to be included in weekly fmancial and
      activity reports.

      Response:
      Concur. Resource Management has updated the fonnat and content of weekly
      reports to separately disclose obligations and outlays for Department of Justice
      (DOJ) activity and ensure the amounts are not included for Fund 19-0112.




                                                27

FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs
         and resources hurts everyone.

       Call the Office of Inspector General
                    HOTLINE
                   202-647-3320
                or 1-800-409-9926
         or e-mail oighotline@state.gov
      to report illegal or wasteful activities.

              You may also write to
           Office of Inspector General
            U.S. Department of State
              Post Office Box 9778
              Arlington, VA 22219
           Please visit our Web site at:
               http://oig.state.gov

        Cables to the Inspector General
       should be slugged “OIG Channel”
           to ensure confidentiality.
